No. 19-755

5s SS SESE

 

IN THE

Supreme Court of the Anited States

ROBERT C, STEINER AND WENDY STEINER-REED,

Petitioners,
v.

UTAH STATE TAX COMMISSION,

Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of the State of Utah

BRIEF AMICUS CURIAE OF
COUNCIL ON STATE TAXATION
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,407 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 13, 2020.

 

Colin Casey Hogan
Wilson-Epes Printig Co., Inc.
